      AUDIT OF THE RECONNAISSANCE, SURVEILLANCE,
            AND TARGETING VEHICLE PROGRAM

Report No. D-2001-115                          May 8, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil or contact the Secondary Reports Distribution
  Unit of the Audit Followup and Technical Support Directorate at (703) 604-8937
  (DSN 664-8937) or fax (703) 604-8932.



  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
ATD                   Advanced Technology Demonstrator
DARPA                 Defense Advanced Research Projects Agency
IPT                   Integrated Product Teams
NAPDD                 Non-Acquisition Program Definition Document
NSWC                  Naval Surface Warfare Center
RST                   Reconnaissance, Surveillance, and Targeting
SECNAVINST            Secretary of the Navy Instruction
                      Office of the Inspector General, DoD
Report No. D-2001-115                                                      May 8, 2001
  (Project No. D2001AB-0020)

               Audit of the Reconnaissance, Surveillance, and
                         Targeting Vehicle Program

                               Executive Summary

Introduction. The Reconnaissance, Surveillance, and Targeting vehicle is a
technological demonstrator program jointly funded by the Marine Corps and the
Defense Advance Research Project Agency. The Office of Naval Research, acting for
the Marine Corps, has responsibility for program execution while the Naval Surface
Warfare Center and the Defense Advance Research Project Agency share technical
management responsibility. The demonstrator program’s objective is to evaluate the
applicability of electric drive propulsion for a wheeled vehicle that can be internally
transported in the Marine Corps’ Osprey aircraft (the MV-22). The demonstrator
program is in the second of a two-phased development, with a total value of
$30.6 million for four vehicles for Navy and Marine Corps test and evaluation. If the
options are exercised another $38.6 million would be expended.

Objectives. The objective of the audit was to evaluate the Navy’s acquisition planning
and development for Reconnaissance, Surveillance, and Targeting vehicle technology
demonstrator program. We reviewed system requirements, program coordination, and
the use of the other transaction authority.

Results. Office of Naval Research and Marine Corps Systems Command officials did
not establish exit criteria and a technology transition plan for the Reconnaissance,
Surveillance, and Targeting vehicle advanced technology demonstrator program. In
addition, the potential exercising of options in the other transaction agreement would
result in an unauthorized initial production decision. As a result, the Office of Naval
Research and Marine Corps officials did not properly plan for the potential introduction
of the RST vehicle or emerging technology(ies) into existing systems. Also, the
possibility exists that the Navy would exceed its authority for other transaction
agreements by exercising options for production of 39 more vehicles. For details of the
audit results, see the Finding section of the report.

Summary of Recommendations. We recommend that the Commander, Marine Corps
Systems Command, update the non-acquisition program document, as required by Navy
policy. We recommend that the Chief, Office of Naval Research, in concert with the
Marine Corps, develop exit criteria that identify thresholds and objectives, and develop
a technology transitioning plan for the Reconnaissance, Surveillance, and Targeting
vehicle or its emerging technology(ies). We also recommend that the Commander,
Naval Surface Warfare Center, not exercise options under the other transaction
agreement for this program.

Management Comments. Management comments were not received in response to a
draft of this report issued on February 28, 2001. Comments to the final report are
requested from the Commander, Marine Corps Systems Command; the Chief, Office of
Naval Research; and the Commander, Naval Surface Warfare Center. Comments to
the final report should be received by June 8, 2001.




                                        ii
Table of Contents

Executive Summary                                                       i

Introduction
     Background                                                         1
     Objectives                                                         1

Finding
     Transitioning of the Reconnaissance, Surveillance, and Targeting
       Vehicle Technology Program                                       2

Appendixes
     A. Audit Process                                                   7
          Scope and Methodology                                         7
          Prior Coverage                                                8
     B. Report Distribution                                             9
Background
     History. The Reconnaissance, Surveillance, and Targeting vehicle (the RST
     vehicle) is a jointly funded program by the Marine Corps and the Defense
     Advanced Research Projects Agency (DARPA). The Office of Naval Research,
     acting for the Marine Corps, is responsible for program execution. The Naval
     Surface Warfare Center (NSWC), Carderock Division, and DARPA share
     technical management responsibility. The RST vehicle was being developed as
     an advanced technology demonstrator (ATD). The ATD program concept was
     to develop a wheeled vehicle that demonstrates electric propulsion and
     survivability technologies and that is internally transportable in the Marine
     Corps MV-22 aircraft (the Osprey). The RST vehicle has been in development
     since November 1997 under a two-phased effort. Phase one included the
     issuance of two other transaction agreements, to competing contractors, for the
     vehicle concept-design development. Phase two resulted in the selection of a
     design proposal and continued development.

     Prototype Other Transactions. The development of the RST vehicle was
     acquired under the other transaction authority. In 1989, Congress enacted
     section 2371, title 10, United States Code (10 U.S.C. 2371), which authorizes
     the use of other transaction agreements for basic, applied, and advanced
     research projects. The National Defense Authorization Act of FY 1994,
     section 845, augmented the other transaction authority to allow its use for
     prototype projects that are directly relevant to weapons or weapon systems.
     That authority waives many of the Federal Acquisition Regulation contracting
     procedures. One of the reasons Congress granted the other transaction authority
     was to obtain research and development efforts from nontraditional Defense
     contractors and to pursue commercial solutions to defense requirements.
     Nontraditional contractors can participate at the prime or subcontractor level.
     The prototype other transaction authority can be used only for the development
     of a prototype. Procurement of prototype production items requires the use
     Federal Acquisition Regulation contracting procedures. The Under Secretary of
     Defense for Acquisition, Technology, and Logistics issued guidance in the
     “Other Transaction Guide for Prototype Projects,” December 21, 2000. The
     authority to use other transactions for prototypes was extended until
     September 30, 2004.

     The other transaction prototype authority was issued during both phases. The
     prime contractor for the RST vehicle is a traditional Defense contractor, General
     Dynamics Land Systems, with nontraditional contractors participating at the
     subcontractor level.
Objectives
     The objective of the audit was to evaluate the Navy’s acquisition planning and
     development efforts for the RST vehicle’s demonstrator program. We reviewed
     system requirements, program coordination, and the use of the other transaction
     authority. See Appendix A for a discussion of the audit scope and methodology.

                                         1
            Transitioning of the Reconnaissance,
            Surveillance, and Targeting Vehicle
            Technology Program
            Office of Naval Research and Marine Corps Systems Command officials
            did not establish exit criteria and a technology transition plan for the
            RST vehicle ATD program. In addition, the potential exercise of options
            in the other transaction agreement would result in an unauthorized initial
            production decision. These conditions exist because the Office of Naval
            Research did not adequately follow guidance issued by Assistant
            Secretary of the Navy (Research, Development, and Acquisition)
            concerning non-major defense acquisition programs. As a result, the
            Office of Naval Research and Marine Corps officials did not properly
            plan for the potential introduction of the RST vehicle or emerging
            technology(ies) into existing systems. Also, the possibility exists that the
            Navy would exceed its authority for other transaction agreements by
            exercising options for production vehicles.

Mission Need
     The RST vehicle was being developed to be internally transportable in the
     Osprey tilt-rotor aircraft, and by helicopters and larger aircraft. The goal of the
     ATD program was to evaluate the feasibility of advanced technologies in a small
     vehicle that include sensors, command and control systems, and survivability
     technologies while retaining the capability to modify the vehicle for different
     missions. The Marine Corps would use the vehicle or its emerging
     technology(ies) to perform the reconnaissance, surveillance, and targeting
     during the daytime and nighttime missions, in climatic conditions suitable for
     wheeled vehicles. Internal transportability of the RST vehicle in the Osprey was
     a mission need that is not available in existing vehicles.

Advanced Technology Demonstrator Program
     The concept of an ATD program is to potentially introduce weapon systems or
     technologies to operating forces sooner than has been historically experienced.
     An ATD could be a new weapon system or a technology for an existing weapon
     system(s). The ATD program develops a prototype of the proposed new
     technology for evaluation and testing prior to consideration of introducing the
     technology to a weapon system(s) or operating forces. ATD programs identify
     and reduce technology risks and define the operational suitability in a
     quasi-operational environment.




                                          2
Navy Program Guidance
     The RST vehicle was designated a non-acquisition science and technology
     program in the Non-Acquisition Program Definition Document (NAPDD 97-1)
     approved on February 2, 1998. NAPDDs are science and technology programs
     that are managed in accordance with guidance issued by the Assistant Secretary of
     the Navy (Research, Development, and Acquisition), “Implementation of
     Mandatory Procedures for Major and non-Major Defense Acquisition Programs
     and Major and Non-Major Information Technology Acquisition Programs,”
     (SECNAVINST 5000.2B), December 6, 1996. The NAPDD 97-1 is the initiating
     and control document for the RST vehicle. The SECNAVINST 5000.2B states
     that NAPDDs are valid for 3 years and are required to be revised or revalidated to
     justify a program’s continuation. The Navy guidance is applicable to the RST
     vehicle and as a result the NAPDD-97-1 should have been revised or revalidated
     because it has exceeded the 3-year development period. The RST vehicle ATD
     began prior to approval of the NAPDD-97-1 (in February 1998), when DARPA
     issued the phase one solicitation in July 1997 and the other transaction agreement
     in November 1997. To comply with Navy policy the Marine Corps should
     resubmit NAPDD-97-1 for revalidation.

Vehicle Development
     A concerted effort was expended in developing four demonstrator vehicles
     during the two-phase process through the use of integrated product teams. Also,
     the contractor reported significant progress in the vehicle’s development.

     Two-Phase Process. The RST vehicle has been in development since 1997
     when DARPA initiated the first phase of a two-phase development. The first
     phase involved two competing contractors responsible for developing proposed
     designs for the vehicle. The first phase other transaction agreement, over a
     13-month period, had a total agreement value of $6 million. The second phase
     began with the selection of one of the proposed designs and the fabrication,
     testing, and demonstration of four demonstrator vehicles. The second phase
     was for 39 months with an initial valued at $22 million. Subsequently, two risk-
     reduction modifications, with a total value of $2.6 million, were awarded for
     vehicle weight reduction, battery and electronics improvements, and additional
     testing. The contractor used the Government-generated RST vehicle system
     specification document for vehicle performance specifications. This document
     was developed after review of several other vehicle specifications. In
     phase two, the contractor was required to deliver two vehicle configurations
     (two vehicles per configuration) for continued Navy and Marine Corps testing.
     The two vehicle configurations are a cargo version and a reconnaissance
     version; the reconnaissance version is shown on page 4.




                                        3
    batteries), battery only with engine off, and engine only; can accommodate a
    complete payload including personal equipment, water and rations,
    communications equipment, personal and vehicle mounted weapons,
    ammunition, and mission equipment; can transit a ravine 30 inches deep; is
    transportable in the Osprey; is operable by personnel wearing night vision
    devices including dashboard lumination with the devices; operational in snow,
    ice, sand, dust, and rain environments for extended periods; and satisfies the
    Marine Corps logistics support. NSWC officials planned to demonstrate the
    RST vehicle capabilities upon delivery of two of the four vehicles at a Marine
    Corps exercise in the summer of 2001.

Continued Development
    The Marine Corps NAPDD for the RST vehicle is limited as it provides no
    basis for estimating future program needs. The development of a technology
    transition plan between the Office of Naval Research and the Marine Corps
    would have provided the support necessary to justify the planning of future
    resource requirements.

    NAPDD. The Marine Corps established an NAPDD for the RST vehicle
    program as required by SECNAVINST 5000.2B, and identified ATD program
    goals, milestone timelines, and funding profile through FY 2002. However, the
    program goals in the NAPDD lack specific development characteristics to
    ensure that the developer satisfies the users’ requirements. For example, the
    NAPDD does not provide system, subsystem, and component goals, including
    desired levels of performance, reliability, maintainability, supportability, and
    software maintainability. In addition, the NAPDD for the RST vehicle does not
    provide for the program planning associated with a technology transition
    document. For example, the final milestone in the NAPDD for the RST vehicle
    identifies a Marine Corps program decision meeting in FY 2002. Although
    such an event is necessary, the NAPDD provides no guidance for planning
    future research and development or procurement funding requirements beyond
    FY 2002; therefore, the future of the RST vehicle or its emerging technologies
    is questionable because Marine Corps officials lack a basis for outyear funding
    requirements.

    Technology Transition Plan. Continued development of the RST vehicle or
    the introduction of the technologies to other programs is uncertain because the
    Office of Naval Research did not establish a technology transition plan with the
    Marine Corps. Development of a technology transition plan should have been
    part of the RST vehicle ATD process because it would have documented the
    goals and objectives of the ATD or the emerging technologies. The technology
    transition plan should be established at the beginning of the RST vehicle ATD
    process, prior to contract award, and agreed upon by the developer and potential
    user(s) with subsequent revisions as the development progresses. The
    technology transition plan would have represented an agreement that identified
    the exit criteria and defined the system’s goals, objectives, requirements; the
    developer’s and users’ responsibilities during the development process; the
    expected levels of performance; the contracting strategy; estimated cost, funding

                                        5
    requirements and expected sources; and the technology development schedule.
    The satisfaction of the requirements in the technology transition plan would
    mark the point when the technology is considered for transitioning into a formal
    acquisition program or introduction of emerging technologies into fielded
    systems and would have provided the basis for estimating future resource
    requirements.


Other Transaction Agreement
    The NSWC contracting officials negotiated a prototype other transaction
    agreement for four RST vehicles that included risk reduction modifications
    valued at $24.6 million. NSWC also negotiated three agreement options to
    acquire 39 additional vehicles at an estimated cost of $38.6 million.
    Examination of NSWC program documentation and discussions with officials
    did not identify a plan for the additional vehicles, and the exercise of the options
    could give the appearance of initiating a low-rate initial production effort.
    Initiating a low-rate production effort would not only circumvent the acquisition
    review process but also exceed the authority granted for the use of other
    transactions for prototypes.


Recommendations
    1. We recommend that the Commander, Marine Corps Systems Command,
    update the Non-Acquisition Program Definition Document (NAPDD 97-1) for
    the Reconnaissance, Surveillance, and Targeting Vehicle, as required by
    Secretary of the Navy Instruction 5000.2B.

    2. We recommend that the Chief, Office of Naval Research:

        a. Establish exit criteria, in concert with the Marine Corps, that identify
    agreed-upon thresholds and objectives for the Reconnaissance, Surveillance, and
    Targeting Vehicle Advanced Technology Demonstrator program or its emerging
    technologies, including systems, subsystems, levels of performance, reliability,
    maintainability, supportability, and software maintainability.

        b. Develop a plan, in concert with the Marine Corps, for transitioning the
    Reconnaissance, Surveillance, and Targeting Vehicle program or its emerging
    technologies from the development to the acquisition phase.

    3. We recommend that the Commander, Naval Surface Warfare Center, not
    exercise any of the options for the 39 additional vehicles in the Reconnaissance,
    Surveillance, and Targeting Vehicle prototype other transaction agreement.




                                         6
Appendix A. Audit Process
Scope and Methodology
    Our examination of the RST vehicle development focused on system
    requirements, program coordination, and the use of the other transaction
    authority. We examined the program’s documentation, reviewed contract files,
    and conducted interviews with responsible officials for the RST vehicle
    program, the Marine Corps, and the Army Tank and Automotive Command.
    We examined the use of the other transaction authority by examining the
    agreement to ensure proper use within the limited guidance issued by Office of
    the Secretary of Defense. We did not question the technical merits of the RST
    vehicle program. We did not use computer-processed data to perform the audit.

    We performed this program results audit from October 2000 through January
    2001, in accordance with auditing standards issued by the Comptroller General
    of the United States, as implemented by the Inspector General, DoD. We did
    not review the management control program because the audit focus was on one
    technology development program. However, the conditions identified in this
    report are attributed to the lack of management controls in that exit criteria or a
    technology transition plan were not established. The recommendations in the
    report will correct this management control weakness.

    Contacts During the Audit. We visited or contacted individuals and
    organizations with DoD. Further details are available on request.

    DoD-Wide Corporate Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal and subordinate performance goal.

    •   FY 2000 DoD Corporate Level Goal 2: Prepare now for an uncertain
        future by pursuing a focused modernization effort that maintains U.S.
        qualitative superiority in key warfighting capabilities. Transform the force
        by exploiting the Revolution in Military Affairs, and reengineer the
        Department to achieve a 21st century infrastructure. (00-DoD-2)

    •   FY 2000 Subordinate Performance Goal 2.4: Meet combat forces’ needs
        smarter and faster, with products and services that work better and cost less,
        by improving the efficiency of DoD acquisition processes. (00-DoD-2.4)

    DoD Functional Area Reform Goals. DoD did not establish performance
    improvement reform objectives and goals for this functional area.




                                         7
      General Accounting Office High-Risk Area. The General Accounting Office
      has identified several high-risk areas in the DoD. This report provides coverage
      of the Defense Contract Management and the Defense Weapons System
      Acquisition high-risk areas. Although other transaction agreements are not
      considered to be contracts, we grouped the other transactions in this high-risk
      area because their purpose is similar to contracts. Because the RST vehicle is
      an ATD, this review provided coverage in the Defense Weapons System high-
      risk area because the ATD or the emerging technology could transition to
      defense weapon systems.


Prior Coverage
      During the last 5 years, there have been no audits of the RST vehicle program.
      Five reports have been issued on the use of other transaction agreements.
      Unrestricted General Accounting Office reports can be accessed over the
      Internet at http://www.gao.gov. Unrestricted Inspector General, DoD, reports
      can be accessed at http://www.dodig.osd.mil/audit/reports.


General Accounting Office

      GAO Report No. NSIAD-00-33 (OSD Case No. 1944) “Acquisition Reform,
      DoD’s Guidance on Using Section 845 Agreements Could Be Improved,”
      April 7, 2000

      GAO Report No. NSIAD-96-11 (OSD Case No. 1074), “DoD Research,
      Acquiring Research by Nontraditional Means,” March 29, 1996


Inspector General, DoD

      Inspector General, DoD, Report No. D-2000-065, “Costs Charged to Other
      Transactions,” December 27, 1999

      Inspector General, DoD, Report No. 98-191, “Financial and Cost Aspects of
      Other Transactions,” August 24, 1998

      Inspector General, DoD, Report No. 97-114, “Award and Administration of
      Contracts, Grants and Other Transactions Issued by the Defense Advanced
      Research Project Agency,” March 28, 1997




                                         8
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Director, Defense Advanced Research Projects Agency
Director, Defense Procurement

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Assistant Secretary of the Navy (Research, Development, and Acquisition)
Chief, Office of Naval Research
Commander, Naval Sea Systems Command
Commander, Marine Corps Systems Command
Commander, Naval Surface Warfare Center, Carderock Division
Naval Inspector General
Auditor General, Department of the Navy
Inspector General, Marine Corps

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force


Non-Defense Federal Organization
Office of Management and Budget




                                          9
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management,
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         10
Audit Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector
General for Auditing, DoD, prepared this report. Personnel of the Office of the
Inspector, DoD, who contributed to the report are listed below.

Mary L. Ugone
Raymond A. Spencer
Roger H. Florence
Thelma E. Jackson
Stacey L. Kreinbrook
Mandi L. Markwart
Jacqueline N. Pugh
